                                   NATIONAL SCIENCE FOUNDATION
                                    OFFICE OF INSPECTOR GENERAL
                                      OFFICE OF INVESTIGATIONS

                          CLOSEOUT MEMORANDUM




There was no closeout written at the time this case was closed. The following information was
extracted fiom the file in conformance with standard closeout documents.

Our office was informed that the subject' was alleged to have committed embezzlement, theft or
diversion of grant funds. We found no criminal action but the subject's institution was admonished,
the grant was terminated and the unused h d s returned to NSF.

Accordingly this case is closed.

                -   -.




OIG-02-2
                          .dATIONAL SCIENCE FOUNDATIOh
                             WASHINGTON, D.C. 20550




   O f f ice of
Inspector General




                    (Investigative Report-Case No. 1900800281
Basis f o r Investigation
In August 1990, the                ctor General (OIG) received an
allegation that Dr                                 estigator (PI)
on two NSF grants                                 iversity (PSU),
had used NSF gra                                 perf o m private
consulting work. Intentional diversion of grant funds from their
intended use is a criminal violation under title 18, U.S.C., sec.
666.




Under the authority of the Inspector General Act of 1978, as
amended, we investigated the allegation.
Method of Inveetigation
In response to the allegation, OIG's Office of External Audit
conducted an audit and -issued an audit
referenced grants. (See attached ~ u d i tReport N o .
Based on information obtained during this audit,
investigation that included interviews with Dr.        and other
individuals who worked on these grants and
documentation related to the allegation.
Background
Under these

                                  .
% n s m o ~ from the American Stock Exchancre (AMEX) and the New
York Stock Exchange (NYSE)
data to the public without profit        I
                                       agreed to disseminate the
                                      lease the data to academic
institutions-at the lowest possible price. The income generated
from the leasing of the data would continue to fund the cost of
maintaining the database after the grants had expired. The NSF
         program officer who was responsible for this grant info m e d us that
         the technical quality of the database that was developed meets his
    1
         expectations, and we accept his conclusions in that regard.
         As discussed in our audit report,       uditors found that ~r-
         misapplied NSF f          using NSF-      employees to conduct work
         related to Dr.           personal consultin business and academic
         duties.   Our a e i s c l o s e d that d i n t e r n a l auditors had
         conducted a detailed review of allegations against
         auditors initially questioned $32,022 charged to
         $3.959 to c c o u n t s .        audit report stated:
                In our opinion, Dr.                    as misapplied NSF
                funds, misused depart                   isused University
                computer resources while administering the micromarket
                structures project funded by NSF grant. These violations
                stem from conflicts of interest involving Dr.
                personal consulting services, and other
                interests.
                  eport recommended that Dr. -reimburse        -the
                   questioned costs. After exten ive negotiation, Dr.
         agreed to reimburse -$11,842         from his personal funds.
         credited the entt ' re reimbursement, plus
         grant. Dr. d h a s since relocated to                      University
         and has requested that the remaining
         includes the-reimbursement from Dr.        be transferred to
                         y.
j
        As    stated in               we reviewed the udit and settlement
         and found itaccepfablh However, we                 an additional
        $1,384 for fringe benefits and related indirect costs that should
        have been credited to the NSF account. In addition, we told         0
                                                 w
        officials that they should have informed us about this matter
        before entering a settlement with Dr.
                                             vered that




        -conunissiorr       Charges
        On November 19, 1987      Associate Dean for Research, C        e e of
        Business, authorized *to     establish an account for D r . u a n d
        his staff to begin work on the m ~ o n m i s s i o nproject pendlng an
1.




m
     time, Dr.
     assistant           on the NSF grant. On November
     Department of the Treasu
     authorizing $25,000 to    &     for
     services, and supplies to support
     agreement was based on a proposal submitte
     director. On January 8, 1988, Dr.
           Commission, and on January 11
                                                         -
     official contract from the Department of the Treasury. At that
                      ad hired a computer programmer and aflministrative
                                                                     the
                                   issued a blanket purc ase agreement
                                                             associated.
                                                                    The
                                                             as project
                                                , the blanket purchase
     agreement was amended to increase the amount by $15,000 to a total
     of $40,000.
     According to the comput         ogrammer and the administrative
     assistant employed by Dr.       they worked full time on the Brady
     Commission project from November 1987 through January 1988 and part
     time in February and March 1988. However, Dr. n r e ~ o r t e d
                                                                   to PSU
     that these employees worked               on t e    F grant during
     November and December 1987.          College of Business officials

                    C
     were aware of the ontract             Brady Commission project and
     questioned Dr.        bout the salary             the NSF project.
     When questione a out the charges, Dr.             stated that the
     employees had worked on NSF-funded projects .        request of the
     Associate Dean for Research, College of Business,
     submitted signed monthly statements rtifying the time
     employees worked on the NSP and CJ?Cornmission     projects.
     According to those monthly statements,-Dr-.      eported that the
     computer programmer worked a total of              on the Brady
1               project and the administrat    ssistant worked on the
                      project 12 days. Dr.-      reported that work on
                           project occurred In January  1988, and the
                      on the NSF project for the remaining time.
     charged a total of $1,621 for all salary charges to the
     Commission project, while all other salaries were charged
     NSF project.
     1n ~ a y
            1988,
     project and D
                             out the contract for the   ommi mission
                          signed a memorandum, "Authorlza ion to Close
     Fund,I1 which              the total expenditures for the Brady
     Commission project were $31,240 with an unexpended balance of
     $8,760. By signing the memorandum, Dr. e r t i f i e d that all
     charges were correct.
                                                 Commission official at
                                                     salary charges for
                                    were incorrect. According to Dr.
                             Commission project had been under- charged
                                                    On August 4, 1988,
                                               that salary charges for
                                        een incorrectly charged to the
               t and that PSU should correct the charges.
    '   .




                                            -
                 On August 18, 1988, -responded       that, after 90 days, salary
                 charges could only be transferred from one account to another under
                 exceptional circumstances. In an August 26, 1988, memorandum,
                 Dr. -responded      that salaries were incorrectly charged to the
                 NSF account because immediately after hiring the computer
                 programmer and administrative assistant to work on the NSF project,
                 he and his staff became involved in the-Commission         project.
                 In the memorandum, Dr.-tated       that, "Due to the complexity of
                 the procedures and my unfamiliarity with them, the confusion
                 "resulting from the intensity of the effort, the newness of my
                 organization, and failures in communication, the appropriate
                 charges were not correctly made."
                     ultimately denied Dr.           request to transfer the charges.
                     officials reviewed the payroll records, including statements
                 submitted b             certifying the time that his staff worked on
                                         ission projects . These offi-cials determined
                                         nda, dated August 4 nd August 26, 1988, do
                 not support a transfer of the charges. d f f i c i a l s observed that
                 in May 1988, when the-ommission          account was closed, Dr.-
                 certified that all charges to that account were correct and did not
                 question the salary charges at that time. -relied           totally on
                 written documentation to support their decision and did-not
                 question the computer programmer or the administrative assistant
                 about work actually performed.
            -   Dr.
                ---- h -- a s _ told us--that-.he-
                                                 cannot find--thedocumentation--that
                caused him to write his July 29, 1988, letter statin that $8,128
,               was incorrectly charged to the NSF project. Dr. &told       us that
                he remembers that the employees' workload on the Brady Commission
                project was heaviest in November and December 1987, and that work
                on the ommi mission project diminished in January 1988 and was




                - -
                minimal in February 1988.


                                                         v
                 Based on our interviews with the employees, related documentation
                 frum f i l e s , and the contract for th        Commission project,
                 we questioned $9,833 of salary and related cos s charged to the NSF
                 grant from November 19 through December 31, 1987.       We did not
                 question costs for January because we found documents signed by Dr.
                n
                -        February 1988, certifying the exact number of days that the
                 employees worked on the          Commission project during January
                 1988. This certification is consistent with the fact that the
                -Commission        report was issued on January 8, 1988. We did not
                 question any costs for February and March 1988 since we were not
                 able to determine even roughly how much time employees spent
                 working on the-          Commission and the NSF projects during
                 February and March 1988.
                Inappropriate Administration of Grants and
                          -
                Salary Supplementation by Dr.
                        internal audit and our audit        and   investigation have
'   .C


         established that Dr. -did        not appropriately administer NSF
         grants and that some NSF grant funds were diverted from their
         intended use. After reviewing all relevant evidence, including
         documents and a sworn statement provided by ~r-        we have not
         concluded that ~ r h
                            .    intentionally diverted NSF grant funds. We




                                    --
         are, however, concerned about the pattern of charges for work
         unrelated to these grants.    This, in axid of itself, creates a
         sufficient basis to  termiflate the existing grant. At the very
               .
         least, NSF should impose special controls on the remaining grant
         funds
         In addition to the charges for work unrelated to the grant, we
         found that Dr.-did      not act in accordance with the expectations
         of NSF program staff concerning the extent to which he and others
         could profit from the database developed under the NSF grants.




                                     --
         Because NSFts expectations were not clearly stated, we have not
         concluded that Dr.            intentionally deviated from NSF'S
         expectations.      believe, however, that this important issue was
         never adequately discussed or resolved by NSF,        and ~       r                   m
         This occurred, in part, because ~ r .               received and controlled
         grant income, then used the grant income to make supplemental
         salary payments to employees paid under the grant and to himself.
                                                          -
         Our audit found that -which         was responsible for monitoring a n d
                   - -
         controllins  qrant income,  had   i                 -v
                                              m ~ r o ~ e r lsiven   full control o v e r
                                                 .-
         the collection and use of-thegraGt income fot
              ---                          1-            -ls_-a
                                                          '     _             . not-:-for --
         profit corporation es       1 ed to 'dis ibute the data produced
         under the grant. D r = a b l i s h e d b                 and is its executive
         director. ~ecause-       did not monitor or control grant       -        income,
         there was a lack ofaccountability over grant income.                         This
         situation allowed Dr. t           o use grant income without
         oversight. This lack of control contributed to ~r.-                       misuse
         of NSF and -unds.
         The NSF program officer told us that he expected-to       control
         grant income and had instructed Dr. -not    to use project income
         from the leasing of the database to increase either his salary or
         the salary of others supported under the grant.      The program
         officer wrote a diary note that stated:
              I had a series of telephone conversations with Robert
                    about the lease/year pricing of the NYSE and AMEX
              data tapes. He plans to charge $1500 per user for access
              to these data tapes. This cost includes a 20% royalties
              payment to him for the development of the software and a
              supplement to his academic sal
              being Executive Director of the
             a                         The compensation for royalties
              and for his salary as Executive Director would about
             .@ouble his academic salary.
    I


             I told him we would fund this project only if he agreed
             to eliminate the software royalties and the additional
    m
             compensation as executive director as charges for leasing
             NYSE and AMEX data now and in all future leasing
             arrangements. Leasing arrangements on data sets funded
             by NSF could not be used to increase his or others
             academic salaries. He agreed to these terms.
        In a July 13, 1987,   letter to the NSF program officer, Dr.
        stated:
             The data funded by the NSF grant will be leased at the
             lowest possible rate to academics which, in the opinion
             of the board of oversite, does not jeopardize the
             financial health of the organization established to
             provide the data. The cost-basis use to determine the       .
             lease rate for these data will not include any salary
             arrangements that increase the academic salary of those
             receiving support from this grant, nor any royalty
             payments. Specifically, this refers to transactions data
             from the New York and American Stock Exchanges through
             the period of the grant, and any future updates of these
             data following the termination of the grant.
        The NSF program officer told us that he thought that the issue was
        resolved and forwarded the final program approval for the grant.

                                                                         w
        However,_ our-auditors found documentat ion whlch indicated - ~ r .
        planned to use project income fro-'ctivities         to increase
i       salary and the salaries of some employees paid under the grant.
        Our investigation revealed that in October 1987,
        hired the computer programmer to work on the grant,   when2C
        promised to supplement the progrananerts NSF-funded salary paid
        through y        $7,000 annually. In November 1987, ~ r -also
                                                                   .
        hired the administrative assistant to work on the grant and
        promised to supplement the assistant's NSF-funded salary by $4,000
        annually.
        We found that Dr.-sed        grant income from the leasing of the
        data to pay supplemental salary payments totaling $12,400 to the
        computer programmer and the administrative assistant in 1989. We
        questioned Dr. a b o u t these payments. Dr. -tated        that he
        understood that he could not use project income to supplement his
        academic salary, but the salaries for these employees were not
        academic salaries. We disagree with Dr.  me      The salaries were

                                                                   a
        paid by-     an academic institution, with NSF funds. In addition,
        the NSF program officer stated that he>,made it clear to Dr.
        that project income was not to be used to increase Dr.
        salary or the salaries of individuals who received NSF-supported

                                                     '
        funds.
        Furthermore, documents revealed that Dr.          also allocated
        $40,000 per year to be paid to him from ISSMts budget for serving
  a"s the executive director.    When we questioned Dr.         about
  supplementing his academic salary from the grant income, he
  responded that he had budgeted funds for a salary as executive
  director, but that he had not received any salary Payments except
             4                            m
  a one-time ayment of $35,000 that he received in 1991. According
  to Dr.        that payment came after      received $55,000 from a
  commercial firm for sponsorship of       and for leasing the data.
  According to Dr.-      because the source of the cash flow was from
  a non-academic institution, the payment did not violate the intent
  that royalty or salary payments not be funded by lease revenues
  from universities.
  We believe that prior to this investigation Dr. -did       not fully
  income outside the     m
  communicate to NSP that he and -had      sole control of the grant
                          accounting system. Dr. d-         -also
  used grant income to make supplemental salary payments which was
  not in accordance with the expectations of the NSF program staff.
  Dr. -has      admitted that he has made some mistakes in managing
  these grants and is hopeful that the benefits resulting from the
  project offset these mistakes. ~ccordingto Dr. -,      the database
  is currently serving 39 universities, and the Income from the
  leasing of data has produced sufficient cash reserves such that the




                     -
  survival of the database is not threatened.      In fact, the NSF
  program officer said that he believes NSF has received an excellent
  product for the amount of money it has invested.         ~r.-
  positive work, however, does not alleviate our concerns.
- --------   -       -   -
  Inappropriate Actions by
                             -
                      that -failed     to maintain control of the
  subject grants in accordance with the Grant General Conditions by
  inappropristely delegating control of the grant income to a n
  independent organization controlled by Dr.
  these grants,                                1
                       agreed to comply with app icableIn accepting
                                                            federal
  requirements and to prudently manage all expenditures and actions
  affecting the grants. We believe . k performance in this regard
  was deficient  .               +   $3



  Furthermore, we conclude that 63) was aware of administrative
  problems associated with Dr.
                                          b
                                      management of these grants and
  failed to noti'fy NSF of these pro lems. Grant General Conditions
  state that the grantee is encouraged to seek the advice and opinion
  of NSF on special problems. Clearly,       as confronted with many
  nspecial problems    concerning Dr.           management of these
  gTants, yet m i d not seek the                 NSF program staff o r
  contracting officer.
 We were concerned about this matter because - - without
  ---0nducted    a detailed review of the allegations that Dr.
 diverted NSF           funds, which involved
 violations. S k e v i e w concluded that             had misapplied
 NSF grant funds.     Subsequently, 0 officials negotiated and
    *
¶

          a8cepted a settlement with Dr. w i t h o u t notifying N S F . Part of
          the settlement included a clause that restricted T r o m releasing
          the investigation and settlement except when re ired by law.
          Finally, -officials      approved a recommendation to transfer the
          remaining funds to Dr. t-                        University. This
          transfer of funds would return contro of all remaining grant funds
          to ~r -including        the $11,842 that Dr       reimbursed tO(IPD
         -later       credited this amount to the NSF
         -as      acknowledged that it would have been preferable to notify
          NSF at the point when their internal auditors concluded that NSF


                                                             v
          funds had been misapplied.      d
                                          e
                                          t
                                          a
                                          s
                                          '             that they intend to
          establish specific written policy that will require

                                                            m*
          the appropriate granting agency of internal audi          findings
          involving misappropriated funds     In addit ion,
                                              &' :              has refunded
          $11,217.00 to NSF.     This amount includes $9        00 used for
          salaries, fringe benefits and indirect charges re
          against the NSF grants for work relating to the
          Project, and $1,384.00 questioned in Audit Report
          Recommendstion

          Based on the above-stated findings and conclusions, we recommend
          that NSF should, at a minimum, reach a written agreement with Dr.
          Wood and Memphis State University concerning the control and use of
          grant funds and grant income. In addition, because of the pattern        .
                          - - ---- unrelated to the grants, NSF should require
          of charges for work
i
        -                niversity-to impose-appropriate, special-controlso n
                    to ensure that only reasonable and proper costs are
          charged to the grant.
          Given the relatively small amount of grant funds remaining in the
          account, as well as the relatively expensive administrative costs
          to develop and impose new fiscal controls, we suggest that NSF
          terminate this grant for the convenience of the government and all
          unused grant funds be returned to NSF.
                                          L          .-
                                                          December 13, 1991
